Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   MEDICARE PAYMENTS FOR 

   SURGICAL DEBRIDEMENT 

      SERVICES IN 2004 





                    Daniel R. Levinson

                     Inspector General 


                       May 2007

                     OEI-02-05-00390

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
the Department, Congress, and the public with timely, useful, and reliable information
on significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
E X E C U T I V E                       S U          M M A R Y
Δ    E X E C U T I V E                                   S U M M A R Y                       



                   OBJECTIVE
                   To determine the extent to which Medicare Part B surgical debridement
                   services in 2004 met Medicare program requirements.


                   BACKGROUND
                   Surgical debridement is the removal of dead or unhealthy tissue from a
                   wound using a sharp instrument, such as a curette or scalpel. The
                   purpose of surgical debridement is to promote wound healing by
                   removing sources of infection and other impediments.
                   Medicare Part B payments for surgical debridement services have
                   increased in recent years. Between 2001 and 2005, Medicare-allowed
                   payments grew by 44 percent, from $140 million to $202 million.

                   We conducted a medical record review of 368 surgical debridement
                   services from the Centers for Medicare & Medicaid Services’ (CMS)
                   National Claims History file that had a date of service in 2004.
                   Physicians with experience in wound care and certified professional
                   coders reviewed the medical records to determine whether they met
                   Medicare program requirements. In addition, we interviewed staff
                   from the 17 carriers that processed Part B claims in 2004. We also
                   reviewed the carriers’ local coverage determinations that provided
                   additional guidance about surgical debridement services.


                   FINDINGS
                   Sixty-four percent of surgical debridement services in 2004 did not
                   meet Medicare program requirements, resulting in approximately
                   $64 million in improper payments. Medicare allowed approximately
                   $188 million in 2004 for surgical debridement services. An estimated
                   64 percent of these services did not meet one or more Medicare program
                   requirements. As a result, Medicare allowed an estimated $64 million
                   in improper payments in 2004. Higher cost services were less likely to
                   meet program requirements than lower cost services.
                   Reviewers determined that 39 percent of surgical debridement services
                   were billed with a code or modifier that did not accurately reflect the
                   service provided. Twenty-nine percent of services had no
                   documentation or insufficient documentation to determine whether the




 OEI-02-05-00390   M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004   i
E X E C U T I V E                       S U          M M A R Y


                   services were medically necessary or were coded accurately. One
                   percent of all surgical debridement services in 2004 were not medically
                   necessary.
                   Most carriers had local coverage determinations and edits in place
                   but conducted limited medical review of surgical debridement
                   services. Twelve of the seventeen carriers had at least one local
                   coverage determination (LCD) in 2004 that addressed surgical
                   debridement services. These LCDs addressed medical necessity and the
                   debridement codes but in somewhat different ways. For example,
                   1 carrier’s LCD was significantly different from the other 11 carriers’
                   LCDs and, according to reviewers, was inconsistent with Medicare
                   coding guidelines. Twelve of the seventeen carriers had edits in place
                   for surgical debridement services at the time of our review. However,
                   only 8 of the 17 carriers conducted any medical review of surgical
                   debridement services within the past 5 years.


                   RECOMMENDATION
                   Based on the results of our review, we recommend that CMS:

                   Strengthen program safeguards to prevent improper payments for
                   surgical debridement services. CMS should either develop a
                   National Coverage Determination or instruct carriers to develop more
                   uniform policy guidance that defines surgical debridement and clarifies
                   how to most appropriately code the services provided. The guidance
                   should also clarify what information needs to be documented in the
                   medical record to meet Medicare program requirements. CMS should
                   also instruct carriers to implement edits, such as frequency edits, as
                   appropriate.

                   In addition, CMS should instruct carriers to conduct additional medical
                   reviews and education efforts on surgical debridement services.
                   Carriers should focus their reviews on common coding errors, higher
                   cost services, and/or providers who have aberrant billing patterns.
                   Education should focus on what services are considered surgical
                   debridement, how these services should be correctly coded, and when
                   modifiers may be used.

                   Lastly, CMS should work with the carrier that has the LCD that is
                   different from the others to ensure that this policy is consistent with
                   current Medicare coding guidelines.



 OEI-02-05-00390   M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004   ii
E X E C U T I V E                       S U          M M A R Y


                   In addition to these recommendations, we will forward information on
                   the miscoded, insufficiently documented, and medically unnecessary
                   services in our sample to CMS for appropriate action.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS generally concurs with our recommendations for more review and
                   guidance with a focus on coding, billing, and education. CMS believes
                   that development of LCDs by Medicare contractors, as opposed to a
                   National Coverage Determination, provides the best method of
                   strengthening program safeguards. In particular, CMS concurs with
                   our recommendation that guidance on surgical debridement by
                   Medicare contractors would help standardize clinical approaches to
                   surgical debridement and promote appropriate utilization. CMS also
                   agrees that additional provider education on appropriate coding and
                   modifiers is necessary. Lastly, CMS will encourage Medicare
                   contractors to use proactive data analysis to determine areas where
                   medical review should be increased.

                   In addition, CMS notes that in response to the initiation of our review,
                   many of the Medicare contractors developed LCDs in 2005 and 2006
                   that offer more explicit guidance on surgical debridement. We
                   encourage CMS to continue to work with the contractors, particularly
                   those that do not currently have LCDs, to ensure uniform and
                   consistent policy guidance on surgical debridement services.




 OEI-02-05-00390   M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004   iii
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 7

                   Sixty-four percent of surgical debridement services did not 

                   meet program requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


                   Carriers had some safeguards but conducted limited medical 

                   review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 




         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                   Agency Comments and Office of Inspector General Response . . . 12 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                   A: 	Detailed Description of Sample Selection and Medical 

                       Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 


                   B: 	Confidence Intervals for Selected Estimates . . . . . . . . . . . . . . 17 


                   C: 	 Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

I N T R O D        U C T             I O N
Δ    I N T R O D U C T I O N                                             



                     OBJECTIVE
                     To determine the extent to which Medicare Part B surgical debridement
                     services in 2004 met Medicare program requirements.


                     BACKGROUND
                     Surgical debridement is the removal of dead or unhealthy tissue from a
                     wound using a sharp instrument, such as a curette or scalpel. The
                     purpose of surgical debridement is to promote wound healing by
                     removing sources of infection and other impediments. Surgical
                     debridement is commonly performed on patients who have diabetes. In
                     2004, 52 percent of Medicare claims for surgical debridement were for
                     patients with a diagnosis of diabetes.1
                     Medicare Part B payments for surgical debridement services have
                     increased in recent years. Between 2001 and 2005, Medicare-allowed
                     payments for these services grew by 44 percent, from $140 million to
                     $202 million. In addition, the incidence of diabetes has risen
                     significantly in recent years and is expected to continue to increase.2
                     As a result, it is reasonable to assume Medicare payments for surgical
                     debridement services will also continue to increase.
                     Surgical Debridement
                     Medicare’s Supplementary Medical Insurance (Part B) covers physician 

                     services and outpatient care, including surgical debridement. 

                     Physicians use codes from the American Medical Association’s Current 

                     Procedural Terminology (CPT) to bill Medicare for these services. 

                     There are five CPT codes for surgical debridement which are based on 

                     the level of skin, tissue, muscle, or bone removed. These CPT codes are:

                     11040 – Debridement; skin, partial thickness; 

                     11041 – Debridement; skin, full thickness; 

                     11042 – Debridement; skin and subcutaneous tissue; 

                     11043 – Debridement; skin, subcutaneous tissue, and muscle; and 

                     11044 – Debridement; skin, subcutaneous tissue, muscle, and bone. 



                   1 This analysis is based on Medicare Part B claims for Current Procedural Terminology codes
                     11040 through 11044 from Centers for Medicare & Medicaid Services’s National Claims
                     History file.
                   2 Department of Health and Human Services, “Diabetes; A National Plan for Action,”
                     December 2004.



 OEI-02-05-00390     M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004             1
I N T R O D        U C T             I O N


                     Medicare covers and pays for surgical debridement services furnished
                     by physicians and other licensed practitioners within the scope of their
                     practice under State law.3 In some States, this includes nonphysician
                     practitioners, such as nurse practitioners and physicians’ assistants.
                     For the purposes of this report, we refer to all practitioners as
                     physicians.

                     Surgical debridement services may be performed by different types of
                     physicians. In 2005, podiatrists performed 66 percent of surgical
                     debridement services covered by Medicare, while general surgeons
                     performed 10 percent. The remaining 24 percent of surgical
                     debridement services were performed by other types of physicians and
                     practitioners, including vascular surgeons, family practitioners,
                     internists, and plastic surgeons.4
                     Surgical debridement services may be performed in a variety of settings.
                     In 2005, 60 percent of surgical debridement services took place in
                     physicians’ offices, 24 percent in outpatient facilities, and 6 percent in
                     nursing facilities or skilled nursing facilities. The remaining 10 percent
                     of services were performed in other settings, such as inpatient hospitals
                     and custodial care facilities.5
                     Medicare Program Requirements
                     General provisions of the Social Security Act (the Act) govern Medicare
                     reimbursement for all services, including surgical debridement.

                            •	      Section 1862(a)(1)(A) of the Act states that no payment may be
                                    made for services that “are not reasonable and necessary for the
                                    diagnosis or treatment of illness or injury or to improve the
                                    functioning of a malformed body member.”6
                            •	      Section 1833(e) of the Act requires that physicians furnish “such
                                    information as may be necessary in order to determine the
                                    amounts due” to receive Medicare payment.7
                     Regulations that reflect these provisions of Medicare law appear at
                     42 CFR §§ 411.15 and 424.5(a)(6).

                   3 Centers for Medicare & Medicaid Services, “Medicare Benefit Policy Manual,” chapter 15,
                     section 60.2, 2003.
                   4 This analysis is based on Medicare Part B claims for CPT codes 11040 through 11044 from
                     the Centers for Medicare & Medicaid Services’s National Claims History file.
                   5 Ibid.
                   6 42 U.S.C. § 1395y(a)(1)(A).
                   7 42 U.S.C. § 1395l (e).




 OEI-02-05-00390     M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004               2
I N T R O D        U C T             I O N



                     In addition, the Centers for Medicare & Medicaid Services’ (CMS)
                     “National Correct Coding Policy Manual for Part B Medicare Carriers”
                     (the Coding Manual) addresses the use of CPT codes and modifiers. It
                     states that, “[p]rocedures should be reported with the [CPT] codes that
                     most comprehensively describe the services performed.”8 The Coding
                     Manual also states that, “[i]t is very important that . . . modifiers only be
                     used when appropriate.”9 Modifiers are two-digit codes that are attached
                     to the end of the CPT code to further describe the service performed.
                     Under certain circumstances, physicians may use modifiers to bypass
                     software-based controls–known as edits–that identify services that
                     generally should not be billed together, such as two services performed on
                     the same patient on the same day, by the same physician.
                     Medicare Payments
                     Medicare reimburses physicians for outpatient surgical debridement
                     services according to the Medicare Physician Fee Schedule. The fee
                     schedule amounts vary by geographic location and by the setting in
                     which the service is rendered, i.e., a facility or nonfacility setting, such
                     as a physician’s office. Carriers adjust the fee schedule amount based
                     on several additional factors to determine the payment for each service.
                     For example:

                            •	      When multiple services are performed by the same physician on
                                    the same day, the highest-value service is reimbursed at
                                    100 percent of the fee schedule amount and the other services
                                    are reimbursed at 50 percent of the fee schedule amount.10
                            •	      Services provided by nurse practitioners and physician
                                    assistants are reimbursed at 85 percent of the fee schedule
                                    amount when billed by these individuals.11
                     Table 1 on the next page shows the average fee schedule amounts for
                     surgical debridement services provided in nonfacility settings in 2004.




                   8 CMS, “National Correct Coding Policy Manual for Part B Medicare Carriers,” Version 10.3,
                     p. viii., 2003.
                   9 CMS, “National Correct Coding Policy Manual for Part B Medicare Carriers,” chapter One
                     General Correct Coding Policies, Version 10.3. p. 1A-13, 2003.
                   10 CMS, “Medicare Claims Processing Manual,” chapter 12, section 40.6, 2003.
                   11 CMS, “Medicare Claims Processing Manual,” chapter 12, sections 110 and 120, 2003.




 OEI-02-05-00390     M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004                3
I N T R O D        U C T             I O N 





           Table 1               Average Fee Schedule Amounts for Surgical Debridement Services
                                 Provided in Nonfacility Settings, 2004

                                CPT Code                                                                             Amount

                                11040                                                                                 $40.44

                                11041                                                                                 $58.26

                                11042                                                                                 $83.19

                                11043                                                                                $229.79

                                11044                                                                                $301.14

                             Source: Office of Inspector General analysis of 2004 Medicare Physician Fee Schedule.



                     Carrier Role
                     CMS contracts with private organizations, called carriers, to process
                     and pay Medicare Part B claims. In 2004, CMS contracted with
                     17 carriers to process Medicare Part B claims in the 50 States and the
                     District of Columbia.

                     Carriers are responsible for implementing program safeguards to reduce
                     payment errors. To accomplish this, carriers may develop local coverage
                     determinations (LCD) or instructional articles, which provide additional
                     guidance to physicians about specific services. Carriers may also
                     implement edits to prevent improper payments. Additionally, carriers
                     are responsible for conducting medical reviews. As part of this function,
                     carriers analyze data and conduct provider education and training,
                     among other activities.


                     METHODOLOGY
                     We based this study on data from several sources: (1) a medical record
                     review of a stratified simple random sample of allowed Part B surgical
                     debridement services, (2) a review of carrier policies and other
                     documentation, and (3) structured telephone interviews with carrier
                     staff. A detailed description of the sample selection and medical review
                     is provided in Appendix A.




 OEI-02-05-00390     M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004                          4
I N T R O D        U C T             I O N


                     We selected a stratified simple random sample of 400 claim line items
                     for surgical debridement services from CMS’s National Claims History
                     file.12 We identified all of the allowed claims with CPT codes 11040,
                     11041, 11042, 11043, and 11044 that had service dates in 2004 and
                     allowed reimbursements of at least $15. At the start of our review, 2004
                     was the most recent full year of Medicare claims data available. The
                     population consisted of approximately three million claims that
                     represented about $188 million in allowed payments.

                     To improve our estimates of improper payments, we stratified our
                     population based on Medicare allowed payments. The first stratum
                     included all claims with allowed payments greater than $100. The
                     second stratum included all claims with allowed payments less than or
                     equal to $100 and at least $15. We looked for differences in the error
                     rates between the two strata.

                     Our sample of 400 claims included a total of 402 services for review.13
                     We requested the medical record from the physician for each of these
                     services. We based our review on 368 of the 402 services, corresponding
                     to a 92-percent response rate. We did not include the other 34 services
                     in our analysis because we were unable to locate current addresses for
                     the physicians.

                     We used a contractor to conduct the medical review. The reviewers
                     included three physicians with experience in wound care and three
                     certified professional coders. In collaboration with the reviewers, we
                     developed a review instrument that was based on Medicare program
                     requirements. One physician and one coder reviewed each of the
                     medical records: the physician determined whether the service was
                     medically necessary, and the coder determined the appropriate CPT
                     code and modifier(s) for the service.

                     In addition, we reviewed the carriers’ LCDs that addressed surgical
                     debridement services. We compared these LCDs to assess their
                     similarities and differences. We also reviewed documentation provided
                     by the carriers about the safeguards they had in place related to
                     surgical debridement services.




                   12 Multiple claim line items may be billed within a single claim. For this report, we refer to
                      claim line items as claims.
                   13 Multiple services may be billed within a single claim line item.




 OEI-02-05-00390     M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004                    5
I N T R O D        U C T            I O N


                    Lastly, we conducted structured telephone interviews with staff at each
                    of the carriers that were responsible for overseeing coverage and
                    payment issues. Our questions focused on any policies and safeguards
                    they had to prevent improper payments for surgical debridement
                    services. We conducted these interviews between December 2005 and
                    February 2006.
                    Standards
                    Our review was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-02-05-00390    M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004   6
Δ        F I N D I N G S 


      Sixty-four percent of surgical debridement                Medicare allowed approximately
services in 2004 did not meet Medicare program                  $188 million in 2004 for surgical
        requirements, resulting in approximately                debridement services. An estimated
               $64 million in improper payments                 64 percent of these services did not
                                                                meet one or more Medicare program
                                                                requirements. As a result, Medicare
                           allowed an estimated $64 million in improper payments in 2004.
                           Additionally, we found that higher cost services were less likely to meet
                           program requirements than lower cost services. Specifically,
                           75 percent of services that were greater than $100 did not meet
                           requirements, compared to 63 percent of services that were less than or
                           equal to $100. 14 Table 2 describes the error rates. Appendix B provides
                           the confidence intervals for key estimates.


       Table 2
                         Error Rates of Medicare Part B Surgical Debridement Services, 2004


                         Type of Error                                                                     Percentage

                         Miscoded                                                                                      39%

                         Insufficient Documentation                                                                    29%

                         Medically Unnecessary                                                                         1%

                         (Overlapping Error)                                                                       (5%)


                         Total Error                                                                                   64%
                       Source: Office of Inspector General medical review results, 2006.




                           Thirty-nine percent of surgical debridement services were miscoded
                           An estimated 39 percent of surgical debridement services in 2004 were
                           billed with a code and/or modifier that did not accurately reflect the
                           service provided. Specifically, 21 percent were “upcoded,” meaning that
                           the service was reimbursed at a higher rate than appropriate. Another
                           7 percent were “downcoded,” meaning the service was reimbursed at a
                           lower rate than appropriate. The remaining 10 percent were coded with
                           an incorrect modifier, but there was no effect on payment.15 In total,


                        14 In a two-tailed test, this difference was significant at the 95-percent confidence level.
                        15 Note that these percentages do not add to 39 percent due to rounding.




     OEI-02-05-00390       M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004                       7
F   I N D I N G          S


                        these miscoded services represented an estimated $19 million in
                        improper payments in 2004.16
                        Of those services that were miscoded, almost half (47 percent) were not
                        actually surgical debridement. In fact, 20 percent of miscoded services
                        were actually routine foot care which should not have been covered by
                        Medicare.17 In all of these cases, the physician removed a benign
                        hyperkeratotic lesion, such as a corn or callus, and billed it as surgical
                        debridement.

                        One-third of the services that were miscoded (33 percent) were billed
                        with an inappropriate modifier. In these cases, physicians submitted a
                        claim with a modifier that was not necessary or did not accurately
                        describe the circumstances of the service. For example, several
                        physicians submitted claims with modifier 59 when it was not needed.
                        Modifier 59 indicates that the service was the second of two distinct
                        services and that it should be paid at 50 percent of the fee schedule
                        amount. Several physicians used this modifier when they provided only
                        one service.18
                        The remaining 20 percent of the services that were miscoded were billed
                        with a surgical debridement code that did not accurately reflect the
                        level of tissue, muscle, or bone removed during the debridement. For
                        example, the medical record indicated that tissue was debrided to (but
                        not including) muscle, yet physicians billed CPT 11043―debridement of
                        skin, subcutaneous tissue, and muscle. As one reviewer noted,
                        physicians frequently coded the level of debridement based on the depth
                        of the wound, as opposed to the extent of the tissue removed.
                        Twenty-nine percent of surgical debridement services were insufficiently
                        documented
                        An estimated 29 percent of services in 2004 were either not documented
                        or insufficiently documented. In all of these cases, the physician did not

                      16 The $19 million in improper payments represents the difference between the total amount
                         of overpayments and underpayments.
                      17 Routine foot care includes such services as the cutting and removal of corns and calluses,
                         the trimming of nails, and the cleansing and soaking of feet. See “Medicare Benefit Policy
                         Manual,” chapter 15, section 290(B)(2). Except under specific circumstances, routine foot
                         care is excluded from coverage under Medicare Part B. These exceptions are outlined in
                         sections 290F and 290G of the Manual.
                      18 A recent Office of Inspector General report, “Use of Modifier 59 to Bypass the Medicare’s
                         National Correct Coding Initiative Edits” (OEI-03-02-00771), found that 40 percent of code
                         pairs billed with modifier 59 in fiscal year 2003 did not meet Medicare program
                         requirements, resulting in $59 million in improper payments.



    OEI-02-05-00390     M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004                   8
F   I N D I N G          S


                        furnish enough information to determine the amount due, and therefore
                        Medicare should not have paid for these services.19 In total, these
                        services represented an estimated $49 million in improper payments in
                        2004.

                        For the services that were not documented, physicians failed to submit
                        any documentation for the sampled services. For the services that were
                        insufficiently documented, the records did not have enough information
                        to determine whether the services were medically necessary or were
                        coded accurately. For example, one medical record indicated that the
                        physician changed the wound dressings but did not provide enough
                        information to determine whether the physician actually debrided the
                        wound.

                        The reviewers also noted that some of the services that were not
                        sufficiently documented may have been part of an inappropriate
                        pattern. Although the reviewers did not determine whether each of
                        these other services was appropriate because they were not in the
                        sample, they noted that the number of services provided to some
                        beneficiaries may have been excessive. For example, reviewers noted
                        that one patient had 43 debridements involving muscle within a
                        9-month period.
                        One percent of surgical debridement services were not medically necessary
                        Reviewers determined that about 1 percent of surgical debridement
                        services in 2004 were not medically necessary. For these services, the
                        medical records indicated that the wounds did not need to be debrided.20
                        For example, one record showed that the ulcer required dressing
                        changes but not surgical debridement. Another record contained a
                        description of a wound with healthy pink tissue and no evidence of
                        infection.




                      19 42 U.S.C. § 1395l(e).
                      20 We did not report an estimate of improper payments for the medically unnecessary
                          services because the confidence interval contained zero.



    OEI-02-05-00390     M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004         9
  F   I N D I N G                S 




Most carriers had local coverage determinations           Based on interviews with staff
                                                          at each carrier and a review of
and edits in place but conducted limited medical
                                                          documentation, we found that most
        review of surgical debridement services
                                                          carriers had LCDs and edits in place
                       to prevent improper payments for surgical debridement. However, the
                       carriers performed only limited medical review of surgical debridement
                       services in the past 5 years. Table 3 describes the types of safeguards
                       that each carrier had in place.




Table 3
                Key Safeguards for Surgical Debridement Services


                                                                                                        Limited   Widespread
                                                                 Edits for          Edits for           Medical      Medical
               Carrier                         LCD             Frequency           Diagnosis            Review*      Review*
               1                                                                                             U            U
               2                                   U                                                         U            U
               3                                                                            U
               4
               5                                   U                                        U
               6                                   U                                        U
               7                                   U                       U                U
               8                                   U                                                         U
               9                                   U                                        U
               10                                  U                                        U                U
               11                                  U                                        U
               12                                  U                                        U                U
               13                                  U                                        U                U
               14                                  U                       U                                 U
               15                                  U                                        U                U            U
               16
               17                                                          U

               Total                              12                        3              10                8             3
             Source: Office of Inspector General interviews and document review, 2006.

             *The carrier has conducted this activity within the past 5 years.




                               Local Coverage Determinations. In 2004, 12 of the 17 carriers had at least
                               one LCD that addressed surgical debridement services. The remaining
                               five carriers did not have LCDs that addressed surgical debridement
                               services.



      OEI-02-05-00390          M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004                     10
F   I N D I N G          S



                        All of the 12 carriers that had LCDs addressed medical necessity and the
                        debridement codes but in somewhat different ways. For example, all 12
                        carriers considered surgical debridement to be medically necessary for
                        patients with certain diagnosis codes; however, the number of diagnosis
                        codes varied significantly from 3 to 128. Further, all addressed the codes.
                        However, 8 of the 12 carriers explained when it was appropriate to use the
                        surgical debridement codes, while 3 other carriers outlined when it was
                        not appropriate to use these codes. The remaining carrier only listed the
                        codes.
                        In addition, 1 carrier had an LCD that was significantly different from
                        the other 11 carriers’ LCDs. According to the reviewers, this LCD was
                        also inconsistent with the CPT Manual.21 Specifically, this LCD allowed
                        physicians to bill for the removal of keratotic lesions using CPT code
                        11040 (debridement–skin, partial thickness) under certain
                        circumstances.22 The CPT Manual contains a different series of
                        codes–CPT 11055, 11056, and 11057–for the removal of these lesions.
                        These codes are considered routine foot care and are generally not
                        covered by Medicare.23

                        Edits. Twelve of the seventeen carriers had edits in place for surgical
                        debridement services at the time of our review. Three carriers had edits
                        that limited the frequency with which surgical debridement may be billed.
                        Ten carriers had edits that ensured that surgical debridement services are
                        billed with the diagnosis codes that are designated in their LCDs.24

                        Medical Reviews. Nine of the seventeen carriers reported that they had not
                        conducted any medical review of surgical debridement services in the past
                        5 years. Five carriers conducted only limited reviews of surgical
                        debridement services that generally targeted physicians with aberrant
                        billing patterns. For example, one of these five carriers had conducted
                        medical reviews of only two physicians within the past 5 years. Three
                        other carriers had conducted both limited and more widespread reviews of
                        over 100 claims.


                      21 For more information see the National Heritage Insurance Company’s LCD entitled “Foot

                         Care” (L21861).
                      22 According to the LCD, to bill CPT code 11040, a keratotic lesion must directly or indirectly

                         contribute to perilesional soft tissue inflammation and/or pain.
                      23 “Medicare Benefit Policy Manual,” chapter 15, section 290(B)(2).
                      24 One carrier had both types of edits in place.




    OEI-02-05-00390     M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004                11
Δ   R E C O M M E N D A T I O N                                                 


                  Our review found that almost two-thirds of all surgical debridement
                  services in 2004 did not meet Medicare program requirements. As a
                  result, Medicare allowed an estimated $64 million in improper
                  payments in 2004. This finding demonstrates the need for CMS to take
                  steps to ensure that these services meet Medicare program
                  requirements and are paid appropriately.

                  Based on the results of our review, we recommend that CMS:
                  Strengthen program safeguards to prevent improper payments for surgical
                  debridement services
                  CMS should either develop a National Coverage Determination or
                  instruct carriers to develop more uniform policy guidance, such as LCDs
                  and instructional articles, that defines surgical debridement and
                  clarifies how to most appropriately code the services provided. The
                  guidance should also clarify what information needs to be documented
                  in the medical record to meet Medicare program requirements. CMS
                  should also instruct carriers to implement edits, such as frequency
                  edits, as appropriate.

                  In addition, CMS should instruct carriers to conduct additional medical
                  reviews and education efforts on surgical debridement services.
                  Carriers should focus their reviews on common coding errors, higher
                  cost services, and/or providers who have aberrant billing patterns.
                  Education should focus on what services are considered surgical
                  debridement, how these services should be correctly coded, and when
                  modifiers may be used.

                  Lastly, CMS should work with the carrier that has the LCD that allows
                  the removal of keratotic lesions to be billed as surgical debridement to
                  ensure that this policy is consistent with current Medicare coding
                  guidelines.

                  In addition to these recommendations, we will forward information on
                  the miscoded, insufficiently documented, and medically unnecessary
                  services in our sample to CMS for appropriate action.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS generally concurs with our recommendations for more review and
                  guidance with a focus on coding, billing, and education. CMS believes
                  that development of LCDs by Medicare contractors, as opposed to a
                  National Coverage Determination, provides the best method of

OEI-02-05-00390   M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004   12
R   E C O        M M E N D A T                         I O N


                      strengthening program safeguards. In particular, CMS concurs with
                      our recommendation that guidance on surgical debridement by
                      Medicare contractors would help standardize clinical approaches to
                      surgical debridement and promote appropriate utilization. CMS also
                      agrees that additional provider education on appropriate coding and
                      modifiers is necessary. Lastly, CMS will encourage Medicare
                      contractors to use proactive data analysis to determine areas where
                      medical review should be increased.

                      In addition, CMS notes that in response to the initiation of our review,
                      many of the Medicare contractors developed LCDs in 2005 and 2006
                      that offer more explicit guidance on surgical debridement. We
                      encourage CMS to continue to work with the contractors, particularly
                      those that do not currently have LCDs, to ensure uniform and
                      consistent policy guidance on surgical debridement services. The full
                      text of CMS’s comments is provided in Appendix C.




    OEI-02-05-00390   M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004   13
A P P E N D           I X             ~ A
Δ     A P P E N D I X ~ A

                        Detailed Description of Sample Selection and Medical Review
                        Sample Selection
                        We selected a stratified simple random sample of 400 claim line items
                        for surgical debridement services from CMS’s National Claims History
                        file.25 To do this, we identified all of the allowed claims with CPT codes
                        11040, 11041, 11042, 11043, and 11044 that had service dates in 2004.26
                        We included only claims that had allowed reimbursements of at least
                        $15 to focus our review on higher dollar claims.27 The population
                        consisted of 3,139,435 claims that represented $188,262,601 in allowed
                        payments.

                        To improve our estimates of improper payments, we stratified the
                        population by allowed amount. We also looked for differences in the
                        error rates between the two strata. Table 1 below shows the two strata
                        and the number of claims we selected from each.


    Table 1          Population Count and Sample Size by Strata
                                                                                               Number of              Number of
                     Stratum                                                         Claims in Population       Claims in Sample

                                                                                                      233,643               150
                     1 - Allowed reimbursement greater than $100

                     2 - Allowed reimbursement less than or equal                                2,905,792                  250
                         to $100 and at least $15
                     Total                                                                       3,139,435                  400
                   Source: Office of Inspector General, 2006.




                        The 400 claims in our sample included 412 services. (For six claims in
                        our sample, the physicians billed multiple services on the same claim
                        line items.) We excluded 10 services from our sample. Five of these
                        services were excluded because of an ongoing investigation by the Office
                        of Inspector General. Another five services were excluded because the
                        claims were not for physician’s services and therefore should not have
                        been included in our sample. Our final sample included a total of
                        402 services.


                     25 Multiple claim line items may be billed within a single claim. For this report, we refer to
                         claim line items as claims.
                     26 We did not include claims from outside the 50 States and the District of Columbia.
                     27 Claims reimbursed at less than $15 represented less than 1 percent of claims and allowed
                          dollars in the population.



 OEI-02-05-00390        M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004                            14
A   P   P E N D       I X ~             A


                        Medical Record Request
                        We used a contractor to conduct the medical review. We requested all
                        documentation from the initial evaluations of the wounds through
                        30 days after the dates of service. We also requested that physicians
                        furnish all documentation relevant to the sampled service such as the
                        patient’s diagnoses and treatment plan (if applicable), any pressure
                        relief prescribed, operative notes, pathology reports, and x-rays.

                        We worked with a contractor to collect the medical records for each of
                        the sampled services. The contractor made at least three attempts to
                        contact each physician. The contractor mailed two request letters and
                        made one telephone inquiry. In cases in which the contractor was able
                        to verify the address, we sent a third request letter via certified mail.

                        Our review was based on a total of 368 of the 402 services,
                        corresponding to a 92-percent response rate. We received and reviewed
                        medical records for 354 services. For another 14 services, either the
                        physician did not produce any documentation in response to our third
                        request letter sent via certified mail or the documentation that the
                        physician produced did not contain any information relevant to our
                        sampled service. In our analysis, we considered these services to be
                        undocumented. We did not include the remaining 34 services in our
                        analysis because we were unable to locate current addresses for the
                        physicians.
                        Medical Record Review
                        To conduct the medical review, we contracted with independent medical
                        reviewers. The reviewers included three physicians (two podiatrists and
                        one vascular surgeon) and three professional coders. The two
                        podiatrists were board certified in foot surgery by the American Board
                        of Podiatric Surgery. The vascular surgeon was board certified in
                        general and vascular surgery by the American Board of Surgery. The
                        physicians all had experience reviewing medical records and each had a
                        minimum of 20 years of wound care experience. All of the coders were
                        Certified Professional Coders and each had a minimum of 9 years of
                        experience.28
                        We developed a review instrument in collaboration with the reviewers.
                        The instrument was based on Medicare program requirements and
                        included questions about the existence and nature of the wound, as well


                      28 The coders were certified by the American Academy of Professional Coders.




    OEI-02-05-00390     M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004   15
A   P   P E N D       I X ~             A


                        as the service provided. In developing the instrument, we reviewed the
                        American Medical Association’s manual on Current Procedural
                        Terminology and the LCDs that addressed surgical debridement
                        services that were in effect in 2004. Staff from CMS also reviewed and
                        provided feedback on the instrument.

                        Test review. To test our review instrument and further train our
                        reviewers, we conducted a preliminary medical review of 30 claims that
                        we randomly selected from the universe of claims in 2004. This sample
                        was separate from the sample we used in our review.29
                        Final sample review. Using the final review instrument, one physician
                        and one coder reviewed each of the records. The physician reviewer
                        determined whether the sampled service was medically necessary. The
                        coder determined the appropriate CPT code and modifier(s) for the
                        sampled service. If the service provided was routine foot care, the
                        physician reviewer referred to the “Medicare Benefit Policy Manual” to
                        determine whether or not the service should have been covered by
                        Medicare.30
                        Calculation of improper payments. We analyzed the information from the
                        medical reviewers using SAS and SUDAAN. For the services that were
                        not medically necessary, insufficiently documented, or not covered by
                        Medicare, we counted the entire amounts Medicare allowed for the
                        services as improper. For services that were upcoded or downcoded, we
                        calculated the amount based on the CPT code and modifier(s) that the
                        reviewers determined were correct. We used the 2004 Medicare’s
                        Physician Fee Schedule for the CPT code and adjusted this payment
                        amount based on the modifier, the place of service, and physician
                        specialty. We then subtracted this amount from the amount Medicare
                        allowed for the service to determine the amount overpaid or underpaid.
                        Finally, we calculated the total net difference for all services and
                        projected it to the universe of surgical debridement services in 2004.




                      29 All claims in 2004 were given a chance for selection in both samples. There was no overlap
                         of claims between the samples.
                      30 “Medicare Benefit Policy Manual,” chapter 15, sections 290F and 290G.




    OEI-02-05-00390     M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004             16
               Δ            A P P E N D I X ~ B

Confidence Intervals for Selected Estimates


 Table 1: Estimates of All Errors

 Estimate Description                                                                                         Point Estimate      95-Percent Confidence
                                                                                                                                                Interval

 Percentage of all surgical debridement services that did not meet
                                                                                                                         64.2%               58.3 – 70.1%
 Medicare program requirements

 Percentage of services that were miscoded                                                                               38.7%               32.8 – 44.6%

 Percentage of services that were insufficiently documented                                                              29.1%               23.5 – 34.6%

 Percentage of services that were medically unnecessary*                                                                  0.9%                0.3 – 3.2%

 Percentage of services with overlapping errors                                                                          (4.5%)

 *Confidence interval calculated using the logit transformation.

 Source: Office of Inspector General medical review results, 2006.




 Table 2: Estimates of Miscoded Errors

 Estimate Description                                                                                       Point Estimate        95-Percent Confidence
                                                                                                                                                Interval

 Percentage of all services that were upcoded                                                                            21.3%               16.4 – 26.2%

 Percentage of all services that were downcoded                                                                           7.1%                3.9 – 10.3%

 Percentage of all services that were miscoded with no effect on payment                                                 10.3%                6.6 – 14.0%

 Percentage of miscoded services that were not surgical debridement                                                      46.5%               36.8 – 56.2%


 Percentage of miscoded services that were routine foot care that should                                                 20.3%               12.2 – 28.3%
 not have been covered by Medicare

 Percentage of miscoded services billed with inappropriate modifiers                                                     33.3%               24.1 – 42.4%


 Percentage of miscoded services billed with CPT codes that did not                                                      20.2%               12.9 – 27.5%
 accurately reflect the level of tissue, muscle, or bone removed during
 debridement


Source: Office of Inspector General medical review results, 2006.




                        OEI-02-05-00390            M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004                 17
           A    P    P E N D             I X ~         B

  Table 3: Estimates of Improper Payments

  Estimate Description                                                                                     Point Estimate        95-Percent Confidence
                                                                                                                                               Interval

  Amount allowed for all surgical debridement services that did not meet
                                                                                                                   $64,004,113   $52,540,327 – $75,467,899
  Medicare program requirements

  Amount allowed for services that were miscoded
                                                                                                                   $19,344,984   $11,205,351 – $27,484,618


  Amount allowed for services that were insufficiently documented                                                  $49,389,222   $40,088,836 – $58,689,608

  Amount allowed for services that were medically unnecessary                                                                    confidence interval contains
                                                                                                                    $1,507,694                           zero

  Amount allowed for services with overlapping errors                                                             ($6,237,787)


Source: Office of Inspector General medical review results, 2006.




                        OEI-02-05-00390            M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004                    18
Δ    A P P E N D I X ~ C

    Agency Comments




    OEI-02-05-00390   M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004
   19
A   P   P E N D       I X ~           C           





    OEI-02-05-00390   M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004
   20
A   P   P E N D       I X            ~          C
Δ       A C K N O W L E D G M E N T S                                                     



                      This report was prepared under the direction of Jodi Nudelman,
                      Regional Inspector General for Evaluation and Inspections in the New
                      York regional office, and Meridith Seife, Deputy Regional Inspector
                      General.

                      Miriam Anderson served as the team leader for this study. Other
                      principal Office of Evaluation and Inspections staff from the New York
                      regional office who contributed to this report include David Rudich and
                      Thomas Zimmerman. Central office staff who contributed include
                      Kevin Farber, Scott Horning, Doris Jackson and Barbara Tedesco.




    OEI-02-05-00390   M E D I C A R E PAY M E N T S   FOR   SURGICAL DEBRIDEMENT SERVICES IN 2004   21
